CERTIFICATE OF WORD COUNT
NO. 19-1134
Lonny E. Baley, et al.,
Petitioner(s),
v.
United States, et al.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the PACIFIC COAST
FEDERATION OF FISHERMEN’S ASSOCIATIONS BRIEF IN OPPOSITION contains 6081 words, including the
parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
May 14, 2020

SCP Tracking: True-810 Third Ave., Suite 610-Cover Orange

